                                        Closeout for M99080043

                  On May 18, 1998, the Office of Inspector General received a letter containing an
         allegation of possible administrative abuse in the NSF proposal process by a state
         university.' According to this allegation, afier a professor2 opposed discriminatory
         practices against minorities by the department and university administration, the

'        department chair placed laboratory space restrictions on the professor's NSF proposal.
         The professor's NSF proposal is co-authored by a minority faculty member.3 The
         professor repeatedly complained about the department chair's conduct to university
          official^.^ However, according to this letter, the university does not have standard
         policies and procedures for handling misconduct allegations.

                After considering this letter along with the enclosed correspondence between the
         professor and the department chair, university officials and colleagues, OIG found no
         connection to NSF's jurisdiction. This allegation involves an interdepartmental dispute
         concerning the allocation of laboratory space, with the department chair maintaining that
         individual professors cannot reserve a particular space without permission.

                 In an earlier inquiry closeout memorandumY5OIG addressed a related complaint
         by different faculty members concerning the failure of the same university to establish
         policies and procedures for handling misconduct allegations. As stated in the earlier
         closeout memorandum, NSF's statutory misconduct regulation does not mandate any
         particular investigative procedures, and accordingly the failure of a university to establish
         misconduct policies and procedures is not a violation of NSF's statutory regulations.




         1
             [Footnote redacted].
             [Footnote redacted].
         3
             [Footnote redacted].
         4
             [Footnote redacted].
    :'       [Footnote redacted].


                                                   Page 1 of 1                                M99-43
